No.

IN THE

Supreme Court of the United States

CoMcAST CORPORATION, COMCAST CABLE COMMUNICATIONS, LLC,

 

Petitioners,
v.

CHARLES TILLAGE, JOSEPH LOOMIS,

Respondents.

 

CERTIFICATE OF SERVICE

Thereby certify that I am a member in good standing of the bar of this Court and
that on this 27th day of February, 2020, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Roger N. Heller
LIEFF CABRASER HEIMANN
& BERNSTEIN, LLP
275 Battery Street, 29th Floor
San Francisco, CA 94111
(415) 956-1000
rheller@lchb.com ‘

Counsel for Respondents

    

Joshua M. Wesneski
